                                 Office of Inspector General
                                                             May 2014

Business Loans                               was seized from the man’s loan broker-       submitted numerous financial state-
California Woman Pleads Guilty to False      age company. The man was previously          ments and records to the bank that did
Statements                                   indicted for conspiracy to commit bank       not reflect the use of approximately
On May 1, 2014, a California woman pled      fraud, bank fraud, aiding and abetting,      $2.6 million of business funds for per-
guilty to making a false statement to a      criminal forfeiture, and destruction of      sonal expenses. These expenses includ-
federal agent in connection with her role    records in a federal investigation. The      ed construction expenses at his personal
in a conspiracy to defraud a bank. The       total forfeiture amount is $14,708,000,      residence, cash for gambling, and cloth-
crime related to a $1.8 million SBA loan     which is the amount of the alleged           ing. He also altered the business’s finan-
that her former boss had obtained from       fraudulently obtained funds. His broker-     cial books and records in order to con-
the bank. He previously pled guilty to       age company had specialized in securing      ceal these personal expenses from the
bank bribery. The woman made false           loans for individuals interested in pur-     Internal Revenue Service. This is a joint
statements to the OIG and Treasury In-       chasing or refinancing small businesses      investigation with the IRS Criminal Inves-
spector General for Tax Administration       in the Mid-Atlantic area. According to       tigation (IRS CI) and the U.S. Attorney’s
(TIGTA) agents in a nearly five-year cover   the indictment, he and others encour-        Office.
-up of a conspiracy to defraud the bank.     aged prospective borrowers using his
During interviews with federal agents,       company’s services to apply for Section      Government
she denied any involvement in creating       7(a) guaranteed business loans. In the
                                             process of investigating the SBA loans, it   Contracting
fraudulent tax forms submitted to the
                                             was discovered that the man submitted        Two Maryland Men Indicted on
bank as proof that her former boss had
                                             applications for 17 commercial non-SBA       Conspiracy Charges
resolved his outstanding federal tax lia-
                                             loans to a Maryland bank. For each of        On May 1, 2014, two men were indicted
bilities. Agents learned that she had
                                             the loans, Internal Revenue Service tax      for conspiracy to commit wire fraud and
assisted him in the creation of the fraud-
                                             documents had been altered and bor-          criminal forfeiture. The first man owned
ulent documents and had faxed them to
                                             rowers’ income had been inflated to          and operated a Maryland-based Section
the bank by using her laptop computer.
                                             support a more favorable debt-to-            8(a) firm. He passed numerous 8(a) set-
                                             income ratio, thus increasing the likeli-    aside federal contracts through the sec-
When both individuals became aware of
                                             hood of loan approval. This is a joint       ond man’s Virginia-based firm. In ex-
the investigation, they destroyed the
                                             investigation with the U.S. Attorney’s       change for using the first man’s compa-
laptop to conceal evidence of their fraud.
                                             Office and the U.S. Postal Inspection        ny as a pass-through, the second man
In addition to making false statements,
                                             Service.                                     paid the first man a 4.5 percent fee on
the woman instructed her ex-husband to
                                                                                          all contracts awarded to the first man’s
lie regarding the disposition of her lap-
                                             Massachusetts Businessman Sentenced          company. On May 19, 2014, the Depart-
top. This case was initiated based on a
                                             On May 29, 2014, a Massachusetts busi-       ment of the Air Force issued a notice of
referral from TIGTA regarding fraudulent
                                             nessman was sentenced to nine months         suspension for both men and their firms.
IRS tax lien documents. This is a joint
                                             confinement in a community correction-       This is a joint investigation with the U.S.
investigation with TIGTA, the Federal
                                             al center, nine months home confine-         Air Force Office of Special Investigations,
Bureau of Investigations (FBI), the Feder-
                                             ment, and 42 months of supervised re-        the Department of Interior OIG, and the
al Housing and Finance Administration
                                             lease. He was also ordered to pay            U.S. Attorney’s Office.
OIG, and the Federal Deposit Insurance
Corporation OIG.                             $3,400,000 in restitution. The man pre-
                                             viously had pleaded guilty to bank fraud
                                             and tax evasion. He is the former owner      Government Official Indicted in Virginia
                                             and president of a photography busi-         On May 8, 2014, a Virginia man was for
Funds Seized From Maryland Man’s
                                             ness. Beginning in 2005, the man ob-         conspiracy, bribery, gratuity, making a
Brokerage Firm
                                             tained a series of loans from a bank,        false statement to obtain a Department
On May 16, 2014, the U.S. Government
                                             including two SBA-guaranteed loans. In       of Housing and Urban Development
seized $96,318 in relation to the indict-
                                             the course of obtaining the financing, he    (HUD)/Federal Housing Administration
ment of a Maryland man. The money
                                                                                                                   Page 2

                      insured loan, laundering of        is a joint investigation with     the masonry company was
                      monetary instruments, en-          the FBI, Defense Criminal         sentenced to six months of
                      gaging in monetary transac-        Investigative Service (DCIS),     incarceration and two years
                      tions in property derived          IRS CI, U.S. Army Criminal        of supervised release, in addi-
                      from specified unlawful activ-     Investigation Command, and        tion to being ordered to pay a
                      ity, and attempting to impede      the U.S. Attorney’s Office.       $50,000 fine. They previously
                      the due administration of                                            pleaded guilty in September
                      Internal Revenue laws. The         Florida Law Firm Pleads           2013 to making false state-
                      investigation revealed that,       Guilty                            ments. The defendants had
                      from approximately May             On May 22, 2014, a Florida        caused the prime contractor
                      2007 to October 2011, the          law firm pleaded guilty to        of a federal contract in North
                      former product director of a       aiding and abetting a major       Carolina, to make a false
                      Department of the Army’s           fraud against the govern-         statement to the Department
                      Information      Infrastructure    ment. The law firm repre-         of the Navy that the prime
                      Modernization Program se-          sented a masonry company          contractor was successfully
                      cretly used his official posi-     whose owner allegedly creat-      meeting its small business
                      tion to enrich himself.            ed a separate construction        subcontracting goals.
                                                         company to obtain two small
                      This indictment is one result      business subcontracts on a        In early 2011, a Naval Facili-
                      of a multi-agency investiga-       Department of Navy contract.      ties Engineering Command
                      tion of a conspiracy that in-      He had created the construc-      issued a “Solicitation, Offer
                      cluded the use of a $1.3 bil-      tion company after a $14          and Award” for a series
                      lion Alaska Native Corpora-        million     subcontract    was    of construction projects in
                      tion sole source contract to       awarded to his masonry com-       North Carolina. The contract
                      pay for bribes and the             pany. The owner offered the       was over $67 million and was
                      planned steering of a $780         use of his construction com-      awarded to the prime con-
                      million government contract        pany to replace the masonry       tractor in August 2011. The
                      to a favored Section 8(a) pro-     company in exchange for a         masonry firm had submitted
                      gram participant. This partic-     two percent fee. The law          a $9.4 million bid to do ma-
                      ular official solicited and ac-    firm prepared and sent a          sonry work as a subcontrac-
                      cepted gifts, payments, and        letter to the prime contractor    tor. A prime contractor em-
                      other things of value from         stating that the construction     ployee subsequently told the
 Florida Law Firm     government          contractors,   company was a small busi-         masonry company’s presi-
                      some of whom were SBA pro-         ness despite being aware that     dent that his firm would re-
  Pleads Guilty to
                      gram participants, in return       it was not a small business       ceive the subcontract if it
Aiding and Abetting   for favorable official action.     due to its affiliation with the   used a minority-owned com-
                      Among other things, he re-         masonry business. This is a       pany. The president agreed
  A Major Fraud
                      ceived payments for travel,        joint investigation with the      to use an affiliated compa-
    Against the       vacations, vehicles, cell-         DCIS and the Naval Criminal       ny—that he controlled—as a
                      phones, cellular service, and      Investigative Service (NCIS).     front to receive the subcon-
 U.S. Government
                      female escorts. He also re-                                          tract. All of the work on the
                      ceived ownership interests in      Owner of North Carolina           subcontract was subsequent-
                      two companies and assis-           Masonry Company                   ly passed through the front
                      tance in obtaining home fi-        Sentenced                         company to the masonry
                      nancing. At the official’s di-     On May 29, 2014, the presi-       company. This is a joint in-
                      rection, some of the contrac-      dent of a masonry company         vestigation with the DCIS and
                      tors submitted fraudulent          was sentenced to 12 months        the NCIS.
                      invoices for purported work        and one day of incarceration
                      that was not actually per-         and four years of supervised
                      formed and then paid him a         release. He was also or-
                      portion of the proceeds gen-       dered to pay a $50,000 fine.
                      erated by these invoices. This     The chief financial officer of
                                                                                                                            Page 3

                               California Man Sentenced for      agreements’ terms and condi-        falsification. The SBA had
                               Violation of Anti-Kickback        tions are met.                      declined her home disaster
                               Act                                                                   assistance loan application in
                               On May 23, 2014, the owner        Co-Owner of New Jersey              March 2013. This is a joint
                               of a small California construc-   Business Pleads Guilty              investigation with the New
                               tion company was sentenced        On May 22, 2014, the co-            Jersey Department of Com-
                               to five years of supervised       owner of a New Jersey office        munity Affairs, the U.S. De-
                               probation and a $5000 fine in     furniture and design business       partment of Homeland Secu-
                               connection with violating the     pled guilty to making false         rity OIG, the HUD OIG, and
                               Anti-Kickback Act. The man        claims. The OIG originally          the New Jersey Office of the
                               and four other subcontrac-        had received a referral from        Attorney General.
                               tors were charged in connec-      the Department of Veterans
                               tion with a scheme that in-       Affairs (VA) OIG alleging
                               volved bribery and kickbacks      fraudulent behavior by her
                               at a Navy and Marine base         firm. The allegations stated
                               and other federal facilities.     that the firm, a service-
                               This investigation originated     disabled        veteran-owned
                               based on allegations that         small business, was fraudu-
                               prime contractors in the 8(a)     lently claiming that status.
                               program were receiving kick-      Specifically, the referral stat-
                               backs from subcontractors.        ed that the woman, who is
                               This is a joint investigation     not a veteran, owns and op-
                               with the FBI, NCIS, IRS CI,       erates the business. The case
                               DCIS, and the General Ser-        is a joint investigation with
                               vices Administration OIG.         the VA OIG, the GSA OIG, and
                                                                 the IRS CI.
                            Man Enters into Corporate
                            Compliance Agreement                 Disaster
                            On May 29, 2014, the SBA
                            Office of Business Develop-          New Jersey Woman Charged
                            ment (OBD) entered into a            On May 13, 2014, the New
New Jersey Woman Charged In Corporate Compliance Agree-          Jersey Office of the Attorney
                            ment with a man, his Virginia-       General filed a complaint
      Hurricane Sandy       based business, and his Mary-        against a New Jersey woman
                            land-based business.         On      for allegedly filing false appli-
     Fraud Investigation    April 1, 2014, the OBD had           cations to collect federal re-
                            done the same with his son           lief funds after Hurricane
                            and his Florida-based busi-          Sandy. Allegedly, she falsely
                            ness. The agreements both            claimed that a storm-
                            were for a period of one year.       damaged house in New Jer-
                            This proposal was based on           sey was her primary resi-
                            an investigation showing that        dence, when in fact it was a
                            the Virginia-based firm had          vacant investment property
                            engaged in unlawful or un-           that she planned to renovate.
                            ethical activity while assisting     The woman received $31,900
                            applicants obtain 8(a) certifi-      in Federal Emergency Man-
                            cation. The agreements are           agement Agency (FEMA)
                            intended to provide assuranc-        grants, including $2,270 in
                            es to the government that all        rental     assistance,       and
                            parties are responsible and          $29,630 for home repairs.
                            that the SBA will take no fur-       She was charged with theft
                            ther actions as long as the          by deception and unsworn
                                                                                                                        Page 4




                                         Office of Inspector General
                                             Peggy E. Gustafson
                                              Inspector General

                                                      ***
                                To promote integrity, economy, and efficiency,
                               we encourage you to report suspected instances of
                                    fraud, waste, abuse, or mismanagement
                                  in any SBA program to the OIG Hotline* at

                             http://www.sba.gov/office-of-inspector-general/2662

                            Or call the OIG Hotline toll-free, at (800) 767-0385

*In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act, confidentiality of a complainant’s personally
identifying information is mandatory, absent express consent by the complainant authorizing the release of such
information.




                 We welcome your comments concerning this update or other OIG publications.

                              To obtain copies of these documents please contact us at:

                                           SBA Office of Inspector General
                                           409 Third Street SW, 7th Floor
                                                Washington, DC 20416
                                                 E-mail: oig@sba.gov
                                    Telephone: (202) 205-6586 FAX (202) 205-7382



                               Many OIG reports can be found on the OIG’s website at
                                  http://www.sba.gov/office-of-inspector-general

                           To view recent press releases, click here, or visit our website at
                                http://www.sba.gov/office-of-inspector-general/17611
